UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 20-1079

James Ray Davis
Plaintiff - Appellant
v.

Christopher Morledge, Judge, St. Francis County Circuit Court (Originally named as Christopher
Marledge); Austin Easley, Prosecutor, St. Francis County; John Houseal, Prosecutor, St. Francis
County; Bette S. Green, Circuit Court Clerk, St. Francis County; Gary Mitctusson, Public
Defender, St. Francis County; Fletcher Long, Prosecutor, St. Francis County; St. Francis County
Defendants - Appellees
Appeal from U.S. District Court for the Eastern District of Arkansas - Helena
(2:18-cv-OOl 83-BSM)
JUDGMENT
Before LOKEN, COLLOTON, and KOBES, Circuit Judges.

This court has reviewed the original file of the United States District Court. It is ordered
by the court that the judgment of the district court is summarily affirmed. See Eighth Circuit
Rule 47A(a). The motion for leave to proceed in forma pauperis has been considered and is
granted. The full $505 appellate and docketing fees are assessed against the appellant. Appellant
will be permitted to pay the fee by installment method contained in 28 U.S.C. sec. 1915(b)(2).
The court remands the calculation of the installments and the collection of the fees to the district
court. Appellant's motion for appointment of counsel is denied as moot.
April 20, 2020
Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans
ADDellate Case: 20-1079

Paae: 1

Date Filed: 04/20/2020 Entrv ID: 4904341

Case 2:18-cv-00183-BSM Document 42 Filed 12/30/19 Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF ARKANSAS
DELTA DIVISION
JAMES RAY DAVIS,
ADC #143465
v.

PLAINTIFF
CASE NO. 2:18-CV-00183 BSM

CHRISTOPHER MORLEDGE, et al.

DEFENDANTS
ORDER

James Ray Davis’s motion for judgment [Doc. No. 40] is denied because judgment
was entered nearly a year ago. The clerk is directed to send Davis a copy of Doc. Nos. 5 and
33. To the extent that the motion seeks release from prison, that relief is not available in this
kind of case. Additionally, this case is closed. If Davis wishes to seek release, he must file
a habeas petition in a new case.
IT IS SO ORDERED this 30th day of December 2019.

UNITED STATES DISTRICT JUDGE

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 20-1079
James Ray Davis
Appellant
v.
Christopher Morledge, Judge, St. Francis County Circuit Court (Originally named as Christopher
Marledge), et al.
Appellees

I

Appeal from U.S. District Court for the Eastern District of Arkansas - Helena
(2:18-cv-00183-BSM)
ORDER
The petition for rehearing by the panel is denied.
May 18, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

\

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 20-1079
James Ray Davis
Appellant
v.
Christopher Morledge, Judge, St. Francis County Circuit Court (Originally named as Christopher
Marledge), et al.
Appellees

Appeal from U.S. District Court for the Eastern District of Arkansas - Helena
(2:18-cv-00183-BSM)
MANDATE
In accordance with the judgment of 04/20/2020, and pursuant to the provisions of Federal
Rule of Appellate Procedure 41(a), the formal mandate is hereby issued in the above-styled
matter.
May 26, 2020

Clerk, U.S. Court of Appeals, Eighth Circuit

Case: 2:18-cv-00183-BSM

Document #: 59-0

Date Filed: 07/02/2020

Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF ARKANSAS
DELTA DIVISION
JAMES RAY DAVIS,
ADC #143465
v.

PLAINTIFF

CASE NO. 2:18-CV-00183 BSM

CHRISTOPHER MORLEDGE, et al.

DEFENDANTS
ORDER

The Eighth Circuit assessed the full $505 appellate filing and docketing fees against
James Davis, remanding collection of those fees. Doc. No. 56. Based on information
contained in his application for leave to appeal in forma pauperis [Doc. No. 54], no initial
partial filing fee is assessed. Davis’s custodian shall withdraw and forward to the clerk
monthly payments in the amount of twenty percent of the preceding month’s income credited
to his inmate account each time the amount in the account exceeds $ 10 until the $505 fee has
been paid in full. 28 U.S.C. § 1915(b)(2). The payments shall be clearly identified by the
name and number assigned to this case. The clerk is directed to send a copy of this order to:
(1) the Warden of the Grimes Unit, 300 Corrections Drive, Newport, Arkansas 72112; (2)
the ADC Trust Fund Centralized Banking Office, P.O. Box 8908, Pine Bluff, Arkansas
71611; and (3) the ADC Compliance Office, P.O. Box 20550, Pine Bluff, Arkansas 71612.
IT IS SO ORDERED this 2nd day of July, 2020.

UNITED STATES DISTRICT JUDGE

Additional material
from this filing is
available in the
Clerk's Office.

